IN THE SUPREME COURT OF THE UNITED STATES

RODRIGUEZ, NELSON N.
Petitioner
vs.

No:

20-6987

ROBERT M. WILKINSON, ACTING ATTORNEY
GENERAL
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
February 22, 2021
cc:
NELSON RODRIGUEZ
PRISONER NO. A 038849890
BUFFALO FEDERAL DETENTION
FACILITY
4250 FEDERAL DRIVE
BATAVIA, NY 14020

